WAIVER

Supreme Court, U.S.
FILED

AUG 0 3 2021

Supreme Court of the United States

OFFICE OF THE CLERK

No. 21-5120
Kent Taylor
(Petitioner)

v.

Steven Otero
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:

V I am filing this waiver on behalf of all respondents.
ID

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Offi 1 First Street, NE, Washington, D.C. 20543).

Signature

Q4,0,

cji/y 30

Date:

610

(

Jose Luis Martinez, Esq.

(Type or print) Name
"Mr.

0 Ms.

0 Mrs.

0 Miss

Firm Office of the County Counsel, County of Santa Clara
Address 70 West Hedding Street, East Wing, 9th Floor
City & State San Jose, CA
Phone

(408) 299-9046

Zip

95110

Email iose.martinezAcco.sccoov.orq

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

cc: Kent Taylor

RECEIVED
AUG - 4 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

